           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



          CONTROLS OVER
 REPRESENTATIVE PAYEE ACCOUNTING
     OF SOCIAL SECURITY FUNDS


   February 2007   A-15-06-16065




 AUDIT REPORT
                                         Mission
By conducting independent and objective audits, evaluations and investigations, we
inspire public confidence in the integrity and security of SSA’s programs and operations
and protect them against fraud, waste and abuse. We provide timely, useful and reliable
information and advice to Administration officials, Congress and the public.

                                        Authority
The Inspector General Act created independent audit and investigative units, called the
Office of Inspector General (OIG). The mission of the OIG, as spelled out in the Act, is to:

   Conduct and supervise independent and objective audits and investigations
    relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and operations.
   Review and make recommendations regarding existing and proposed legislation
    and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of problems
    in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                          Vision
We strive for continual improvement in SSA’s programs, operations and management by
proactively seeking new ways to prevent and deter fraud, waste and abuse. We commit
to integrity and excellence by supporting an environment that provides a valuable public
service while encouraging employee development and retention and fostering diversity
and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:   February 26, 2007                                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Controls
                over Representative Payee Accounting of Social Security Funds
        (A-15-06-16065)


        OBJECTIVE
        Our objective was to determine whether representative payee annual accounting
        reports were submitted timely and whether the Social Security Administration (SSA)
        took appropriate action if the accounting reports were not submitted. In addition, we
        determined whether SSA used the redirection authority as stated in the Social Security
        Protection Act of 2004 1 (SSPA) when accounting reports were not submitted.

        BACKGROUND

        Some individuals cannot manage their finances because of their youth or mental and/or
        physical impairments. Congress granted SSA the authority to appoint representative
        payees to receive and manage these beneficiaries’ payments. 2 A representative payee
        may be an individual or an organization. SSA selects representative payees for Old-
        Age, Survivors and Disability Insurance (OASDI) beneficiaries or Supplemental Security
        Income (SSI) recipients when payments to representatives would serve the individuals’
        interests. Representative payees are responsible for using payments in the
        beneficiaries’ best interests.

        SSA’s primary concern is to select a representative payee who will best serve the
        beneficiary’s interest, and preference is normally given to a parent, legal guardian,
        spouse or other relative of a beneficiary. 3 SSA considers payments to a representative
        payee have been used properly for the beneficiary’s current maintenance, if the costs
        were incurred for “…obtaining food, shelter, clothing, medical care, and personal


        1
            Public Law No. 108-203.
        2
            Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
        3
            20 C.F.R. §§ 404.2021and 416.621.
Page 2 - The Commissioner

comfort items.”4 Annually, representative payees are required to submit accounting
reports to SSA to report how the payees spent funds on behalf of the beneficiaries they
served. 5

Section 106 of SSPA gives SSA the authority to redirect the delivery of benefit
payments when a representative payee fails to provide the required accounting reports. 6
If SSA is unsuccessful in obtaining an annual accounting report from the representative
payee, SSA may redirect the beneficiary’s payment check to the appropriate SSA field
office (FO). However, before SSA can exercise this option, it is required to provide
notice to the representative payee and the beneficiary or recipient entitled to the
payment. 7 But, the redirection can be averted if the representative payee comes into
the FO within 15 days of the date of the notice to retrieve the check; however, if the
representative payee fails to show the FO can exercise the option to redirect the check. 8

Based on Section 106 of SSPA, SSA developed internal policies for handling past due
accounting reports. For additional information on these procedures, see Appendix C.

This audit addresses whether SSA took appropriate actions as illustrated in Appendix C
to obtain accounting reports and if SSA has taken advantage of the redirection authority
provided in Section 106 of SSPA. Obtaining timely representative payee accounting
reports helps ensure the beneficiary’s money is being spent appropriately.

To determine whether appropriate actions were taken if a representative payee did not
submit an accounting report timely or at all, we randomly selected 50 OASDI cases and
50 SSI cases. SSA’s policy states: “When a payee does not respond to the initial or
second request mailing of the…[Representative Payee Report] FOs receive a list of
nonresponder cases….” 9 Furthermore, SSA policy states:

          “If the FO is unsuccessful in obtaining an annual accounting report from the
          representative payee after following Steps 1 – 5, GN 00605.085B, or in any
          case in which the payee fails to respond to a request for an accounting of




4
    20 C.F.R. §§ 404.2040(a) and 416.640(a).
5
 SSA, Program Operations Manual System (POMS): GN 00605.001 Overview of Annual Representative
Payee Accounting.
6
 Public Law No. 108-203 § 106, effective September 2004; See also Social Security Act § 205(j)(3),
42 U.S.C. § 405(j)(3).
7
    SSA, POMS: GN 00605.085 How to Handle Non-Responder (Third Alert) Cases.
8
    SSA, POMS: GN 00605.085 How to Handle Non-Responder (Third Alert) Cases.
9
    Id.
Page 3 - The Commissioner

           expenditures when misuse is suspected, the FO manager may redirect the
           beneficiary's payment check to the FO address without processing a change
           of payee. 10

RESULTS OF REVIEW
During our review, we determined that 56 of the 100 representative payee accounting
reports were submitted in response to the initial request and an additional
14 representative payee accounting reports were submitted after the second request.
Also, 11 of the 100 representative payee accounting reports were not submitted as of
June 2006 and benefits could have been redirected, but were not. Although SSA took
appropriate follow-up action to obtain these reports, it did not take advantage of SSPA’s
redirection authority. Finally, 19 of the 100 representative payee accounting reports
were not submitted at all for valid reasons such as the death of the beneficiary. In these
situations, redirection of benefits would not have been appropriate.

OASDI REPRESENTATIVE PAYEE ACCOUNTING REPORTS

To determine whether appropriate actions were taken, we randomly selected 50 OASDI
cases where representative payees did not submit their accounting reports timely. We
then requested copies of the accounting reports from Wilkes-Barre Data Operations
Center (WBDOC). We found 6 of the 50 sample items remained outstanding for at least
7 months after the initial request was sent, and were eligible for benefit redirection;
however, no redirection procedures were initiated. SSA complied with its policy by
sending follow-up notices to the representative payees. For three of the six sample
items, parents were assigned as the representative payees for their children.

Based on our analysis of the procedures pertaining to the OASDI representative payee
accounting reports, we believe SSA has adequate policies and procedures in place to
obtain past due accounting reports. Overall, SSA implemented proper follow-up
procedures to obtain the past due OASDI accounting reports (see Appendix C).
However, SSA could have redirected the beneficiary’s check for six of the
representative payees.

SSI REPRESENTATIVE PAYEE ACCOUNTING REPORTS

To determine whether appropriate actions were taken, we randomly selected 50 SSI
cases with representative payee accounting reports that were due to be submitted. We
then requested copies of the accounting reports from the WBDOC. We found 5 of the
50 sample items remained outstanding for at least 6 months after the initial request was
sent, and were eligible for benefit redirection; however, no redirection procedures were
performed. SSA complied with its policy by sending follow-up notices to the
representative payees. For four of the five sample items, parents were assigned as the
representative payees for their children.

10
     Id.
Page 4 - The Commissioner

For 7 of the 50 sample items, the accounting report period ending date per the
Supplemental Security Record (SSR) did not agree with the period ending date on the
most recent accounting report received from WBDOC. We attempted to resolve the
accounting report date discrepancies by requesting copies of the most recent
accounting reports on 3 separate occasions; once in March 2006 and twice in
June 2006. However, WBDOC staff could not provide the accounting reports
corresponding to the reporting dates shown on the SSR. In addition, we could not
determine which SSA component updated the report period ending date on the SSR.

Based on discussions with SSA, the new Electronic Representative Payee Accounting
Exception System, which will be released by the end of 2007, will resolve this issue
because all representative payee information will be stored in the system. (See the
Other Matters section of this report for further information.) In addition, SSA informed
us that in January 2007 the Agency implemented a system, which establishes a
Representative Payee Accounting DB2 data base to maintain a record of the
Representative Payee Accounting (RPA) data for all OASDI and SSI forms. The data
base will serve as a national OASDI/SSI RPA form/record repository and as a control
system for all RPA form follow-up functions. The data base will store up to 4 years of
historical RPA form data per account number. The historical data will be accessible for
query and update by the beneficiary’s own Social Security number (SSN), common
accounting number, or the Representative Payee’s SSN or Representative Payee
System organizational payee identification.

Overall, SSA implemented proper follow-up procedures to obtain the past due SSI
accounting reports. However, SSA could have redirected the beneficiary’s check for
five of the representative payees.

CONCLUSION AND RECOMMENDATION
Generally, we found that SSA adequately obtained the OASDI and SSI representative
payee accounting reports; however, SSA could have redirected the six OASDI
beneficiary checks and five SSI beneficiary checks to the appropriate SSA FO. We
contacted SSA offices to confirm whether redirection procedures were performed;
however, SSA staff chose to not take advantage of the redirection authority for these
cases. Three of the six OASDI sample items were parent/child relationships, and four
of the five SSI sample items were parent/child relationships. Failure to submit
representative payee accounting reports may indicate the beneficiary’s funds have been
misused; in which case, SSA should ensure that current representative payee
accounting reports are obtained.

We recommend SSA provide policy reminders to its staff on representative payee
accounting, including the option to have benefits or payments redirected.
Page 5 - The Commissioner

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency also provided some technical
comments that were incorporated into our final report. The text of SSA’s comments is
included in Appendix D.

OTHER MATTERS
During the course of our audit, we learned the Agency is making improvements
regarding the representative payee accounting report process. One of those
improvements is the implementation of the Kansas City Region’s Representative Payee
Accounting Non-Responder Program website. This program was designed to automate
the non-responder workload, and the program also has the following capabilities:

   Extracts and organizes non-responder lists for both OASDI and SSI cases.

   Extracts data from the Representative Payee System, the Master Beneficiary
    Record (MBR), and the SSR to pre-fill fields on the Representative Payee Reports.

   Issues appointment notices, redirect notices, and generates revised representative
    payee accounting forms.

Every SSA FO has the ability to use this program; however, not all FOs are taking
advantage of the program. In addition, the program only allows an SSA FO the
capability to review its respective non-responders and does not provide the Program
Service Centers (PSC) or SSA Headquarters offices any reporting or query capabilities.

In addition, the Agency has issued a proposal for an Electronic Representative Payee
Accounting Exception System, which is a web-based system that is intended to provide
exception resolution (i.e. amounts are not in agreement) for the annual accounting
forms. It is anticipated that this system will provide exception notification, control, and
resolution capabilities to assist WBDOC, the PSCs, and the field operations with the
processing of a high-volume recurring workload. It is also intended that this system will:

   Improve the accuracy of the accounting process by ensuring all representative
    payee responses are evaluated in an accurate and consistent manner.

   Expedite the completion of the accounting process by automating the accounting
    forms and eliminating the procedure of physically shipping the forms.

The Office of the Inspector General encourages SSA to continue with its efforts to
develop an automated representative payee system to improve service to beneficiaries
and payees.
Page 6 - The Commissioner

We also found that SSA’s process for handling OASDI accounting reports could be
improved. When OASDI representative payee accounting forms have not been
submitted within 12 months, the control records are moved into an inactive control file,
thus creating a new accounting cycle and a new due date on the MBR. As a result, it is
difficult for SSA staff to determine the status of the accounting reports since the history
is constantly being overwritten. Therefore, we encourage SSA to ensure the new
automated representative payee system maintains a history of the accounting reports.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – SSA Representative Payee Accounting Procedures

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
FO         Field Office
FY         Fiscal Year
MBR        Master Beneficiary Record
OASDI      Old-Age, Survivors and Disability Insurance
POMS       Program Operations Manual System
PSC        Program Service Center
RPA        Representative Payee Accounting
SSA        Social Security Administration
SSA-623    Representative Payee Report
SSI        Supplemental Security Income
SSN        Social Security number
SSPA       Social Security Protection Act
SSR        Supplemental Security Record
U.S.C.     United States Code
WBDOC      Wilkes-Barre Data Operations Center
                                                                     Appendix B

Scope and Methodology
We obtained an extract from the Master Beneficiary Record (MBR) of beneficiaries
whose representative payees did not submit timely accounting reports. We identified
691,903 Old-Age, Survivors and Disability Insurance representative payees who had
past due accounting reports during Fiscal Year (FY) 2005. The data extract excluded
beneficiaries who were in non-current pay status or had representative payees selected
after October 2004. From this population, we randomly selected a sample of
50 representative payees. We also obtained an extract from the Supplemental Security
Record (SSR) of beneficiaries whose representative payees were due to submit
accounting reports. We identified 87,630 Supplemental Security Income (SSI)
recipients whose representative payees had been in place for 24 months or longer, and
were in active and current pay status. The data extract excluded representative payees
who were in non-current pay status or had been representative payees less than
2 years. From this population, we randomly selected a sample of 50 recipients for
review.

To accomplish our objective, we:

   Reviewed applicable Federal laws and regulations, as well as the Social Security
    Administration’s (SSA) Program Operations Manual System.

   Interviewed Agency personnel from the Office of Operations to determine what
    follow-up procedures were used and if personnel were following SSA’s policy on
    non-responders.

   Extracted 691,903 records from SSA’s MBR for beneficiaries whose representative
    payees did not submit timely accounting reports during FY 2005. Of these,
    50 records were randomly selected. We examined these records to determine
    whether SSA:

     provided notice to the representative payee if the required accounting reports
      were not submitted;

     required the representative payee to appear in person at an SSA Field Office
      (FO) if the accounting reports were not submitted; and

     redirected the beneficiary’s payment check.

   Extracted 87,630 records from SSA’s SSR for recipients whose representative
    payees had been in place for 24 months or longer and were in active and current
    pay status. Of these, 50 records were randomly selected. We examined these
    records to determine whether SSA:



                                          B-1
     provided notice to the representative payee if the required accounting reports
      were not submitted;

     required the representative payee to appear in person at an SSA FO if the
      accounting reports were not submitted; and

     redirected the recipient’s payment check.

   Requested the Form SSA-623, Representative Payee Report, for the representative
    payees in our sample from Wilkes-Barre Data Operations Center (WBDOC).

   Requested documentation from SSA field offices to determine the follow-up
    procedures they performed to obtain the accounting reports.

Our MBR data extract included some current accounting reports that did not meet our
specified criteria (i.e. accounting reports that did not exceed the 1 year timeframe). This
occurred because the accounting report information is constantly being overwritten with
current information. As a result, an accounting form for 1 year may have been returned
very late and used to clear the diary established for the following year. See the Other
Matters section of the report for additional information.

Despite the above issue, we determined that the MBR data used in this report was
sufficiently reliable given our audit objective and intended use of the data. Based on our
comparison of the MBR data to the documentation received from WBDOC, we
determined that any data limitations were minor in the context of this assignment and
the use of this data would not lead to an incorrect or unintentional message. However,
we did not fully determine the reliability of the SSR data used in this report. We found
discrepancies in the accounting report period ending date during our comparison of
SSR data to the documentation received from WBDOC. In addition, we could not
determine which SSA component updated the SSR data. Please see the SSI
Representative Payee Accounting Reports section of this report for further discussion of
this issue.

We conducted our fieldwork in Baltimore, Maryland between February 2006 and
June 2006. The entities audited were the Office of Operations, Office of Public Service
and Operations Support and WBDOC. Our audit was conducted in accordance with
generally accepted government auditing standards.




                                            B-2
                                                                    Appendix C

SSA Representative Payee Accounting
Procedures
(SSA, Program Operations Manual System: GN 00605.020 System Selection and
Control, and Mailing of Accounting Forms and SSA, Administrative Message: 05035
Representative Payee Accounting Control File)

Old-Age, Survivors and Disability Insurance:

      Initial Request Mailing- The contractor will mail a Form SSA-623, Representative
Payee Report, to the payee the month following the report period end date.

      Second Request Mailing- The contractor mails a second request SSA-623 to the
representative payee for completion 90 days after the initial mailing was sent.

        Non-Responder Alert- The contractor will issue a non-responder alert 7 months
after the initial request mailing.

Supplemental Security Income:

     Initial Request Mailing- The contractor will mail an SSA-623 to the payee in the
same month the selection was made.

      Second Request Mailing- The contractor mails a second request SSA-623 to the
representative payee for completion 90 days after the initial mailing was sent.

        Non-Responder Alert- The contractor will issue a non-responder alert 6 months
after the initial request mailing.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      February 8, 2007                                                      Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye        /s/

Subject:   Office of the Inspector General (OIG) Draft Report, "Controls over Representative Payee
           Accounting of Social Security Funds" (Audit No. 22006045)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         D-1
COMMENTS ON THE OFFICE OF INSPECTOR GENERAL (OIG) DRAFT REPORT,
“CONTROLS OVER REPRESENTATIVE PAYEE ACCOUNTING OF SOCIAL
SECURITY FUNDS”(A-15-06-16065)

Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this follow-up analysis of information concerning representative payee (Rep Payee)
misuse of beneficiaries’ payments.

The Agency continues to make improvements in the Rep Payee accounting report process and
has already implemented an automated Representative Payee Accounting
Non-Responder Program. This program automates the non-responder workload; i.e., extracts
and organizes non-responder lists for both Title II and Title XVI cases, issues appointment
notices, redirects notices, and generates revised Rep Payee accounting forms. As this process
expands, Social Security Administration Program Service Centers and Headquarters offices will
be included and will have the same reporting and query capabilities to review non-responder
workloads as field offices (FOs).

Recommendation

SSA should provide policy reminders to its staff on Rep Payee accounting, including the option
to have benefits or payments redirected.

Comment

We agree. By March 31, 2007, we expect to issue policy reminders to the FO staff on Rep Payee
accounting, including the option to have benefits or payments redirected.



[In addition to the comments above, SSA provided some technical comments which
have been addressed in this report.]




                                              D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Victoria Vetter, Director, Financial Audit Division, (410) 966-9081

   Kristen Schnatterly, Audit Manager, (410) 965-0433

Acknowledgments

In addition to those named above:

   Crystal Murphy, Auditor-in-Charge

   Brennan Kraje, Statistician

   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-15-06-16065.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
